Supreme Court, U.S.
FILED

MAR 2 3 2020

WAIVER

OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

PennEast Pipeline Co., LLC

19-1039
v.

New Jersey, et al.
(Respondent)

(Petitioner)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
0 Please enter my appearance as Counsel of Record for all respondents.
0 There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):
STATE OF NEW JERSEY; NJ DEPARTMENT OF ENVIRONMENTAL PROTECTION; NJ STATE AGRICULTURE DEVELOPMENT COMMITTEE;

DELAWARE 8 RARITAN CANAL COMMISSION; NJ WATER SUPPLY AUTHORITY, NJ DEPARTMENT OF TRANSPORTATION; NJ DEPARTMENT OF THE TREASURY; NJ MOTOR VEHICLE COMMISSION

0 I am a member of the Bar of the Supreme Court of the United States.
0 I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member.
s

Signature

Date.
(Type or print) Name

0 Mrs.

0 Miss

Office of the NJ Attorney General

Address

25 Market St.

City & State
Phone

:4";10A,

e
JA.
Jeremy M. Feigenbaum
Mr. 0 Ms.

Firm

0/0

Trenton, NJ

609-376-2690

Zip
Email

08625-0080

jeremy.feigenbaum@njoag.gov

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: Paul D. Clement; Edward Lloyd

State of New Jersey
PHILIP D. MURPHY
Governor

OFFICE OF THE ATTORNEY GENERAL
DEPARTMENT OF LAW AND PUBLIC SAFETY
DIVISION OF LAW
25 MARKET STREET
PO Box 093
TRENTON, NJ 08625-0093

SHEILA Y. OLIVER
Lt. Governor

GURBIR S. GREWAL
Attorney General

MICHELLE L. MILLER
Director

March 23, 2020
VIA OVERNIGHT MAIL
Scott S. Harris,
Clerk of the Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543-0001
Re:

PennEast Pipeline Company, LLC v. New Jersey
No. 19-1039

Dear Mr. Harris:
Please find enclosed a completed Waiver form, which is submitted on behalf of Respondents State
of New Jersey; NJ Department of Environmental Protection; NJ State Agriculture Development
Committee; Delaware & Raritan Canal Commission; NJ Water Supply Authority; NJ Department
of Transportation; NJ Department of the Treasury; NJ Motor Vehicle Commission in the abovecaptioned matter.

Respectfully submitted,
GURBIR S. GREWAL
ATTORNEY GENERAL OF NEW JERSEY
By: K‘
Mark olli (MC6192)
Deputy Attorney General

C:

Counsel of Record (VIA Overnight and Electronic Mail)

HUGHES JUSTICE COMPLEX • TELEPHONE: (609) 376-2803 • FAX: (609) 341-5030
New Jersey Is An Equal Opportunity Employer • Printed on Recycled Paper and Recyclable

